Report No. DODIG-2012-086                 May 15, 2012




          Evaluation of DoD Contracts Regarding
            Combating Trafficking in Persons:
                        Afghanistan
      Inspector General
                 United States Department of Defense

      Vision
         One professional team strengthening the integrity, efficiency,
                   and effectiveness of the Department of Defense
                               programs and operations.

       Mission
         Promote integrity, accountability, and improvement of Department
             of Defense personnel, programs and operations to support the
                  Department's mission and serve the public interest.




The Department of Defense Inspector General is an independent, objective agency within the U.S. Department
of Defense that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving
the warfighter and the taxpayer by conducting audits, investigations, inspections, and assessments that result in
improvements to the Department. DoD IG provides guidance and recommendations to the Department of
Defense and the Congress.
                                   INSPECTOR GENERAL
                                    DEPARTMENT OF DEFENSE
                                    4800 MARK CENTER DRIVE
                                 ALEXANDRIA, VIRGINIA 22350-1 500




                                                                                 May 15, 20 12

MEMORANDUM FOR DISTRIBUTION

SUBJECT: Evaluation of DoD Contracts Regarding Combating Trafficking in Persons:
         Afghanistan (Project No. D2009-DIPOE3-0260.004
         Report No. DODIG-20 12-086)

  We are providing this report for information and use.

   We previously requested and received management comments on the draft of this statutorily
required ammal rep01t from U.S . Central Command and the Assistant Secretary of the Army for
Acquisition, Logistics, and Technology and considered their comments in preparing this final
report.

 We appreciate all comtesies extended to the staff. Please direct questions to SPO@dodig.mil.
We will provide a formal briefing if management requests.



                                      ~
                                            Kem1e P. Moorefield
                                                                    <J?;)
                                            Deputy Inspector General
                                              for Special Plans and Operations




DISTRIBUTION:

COMMANDER, U.S. CENTRAL COMMAND
DIRECTOR, LAW ENFORCEMENT POLICY AND SUPPORT, OFFICE OF THE UNDER
SECRETARY OF DEFENSE FOR PERSONNEL AND READINESS
ASSISTANT SECRETARY OF THE ARMY FOR ACQUISITION, LOGISTICS, AND
TECHNOLOGY
COMMANDER, U.S . FORCES - AFGHANISTAN
Evaluation of DoD Contracts Regarding Trafficking in Persons:           Report No. DoDIG-2012-086
Afghanistan                                                                           May 15, 2012




                                   This Page Intentionally Left Blank
Evaluation of DoD Contracts Regarding Trafficking in Persons:                Report No. DoDIG-2012-086
Afghanistan                                                                                May 15, 2012



                 Results in Brief: Evaluation of
                 Department of Defense Contracts
                 Regarding Combating Trafficking in
                 Persons: Afghanistan

What We Did
Section 232 of the “William Wilberforce Trafficking Victims Protection Reauthorization Act of
2008,” Public Law 110-457 (December 23, 2008), requires the Inspectors General of the
Department of Defense, the Department of State, and the United States Agency for International
Development to investigate a sample of contracts for which there is a heightened risk that a
contractor may engage in acts related to trafficking in persons.
In response, we reviewed a sample of 240 Department of Defense contracts with a place of
performance in the Islamic Republic of Afghanistan for compliance with the “Trafficking Victims
Protection Act of 2000,” Title 22, United States Code, Chapter 78 (as amended).
In January and February 2012, we conducted site visits at nine U.S. military installations in the
Islamic Republic of Afghanistan. We conducted over 110 interviews, including meeting with 78
personnel from contracting offices, and 145 local and third-country national contractor
employees. In addition, we reviewed summarized Department of Defense criminal investigative
case data related to combating trafficking in persons that occurred in the Islamic Republic of
Afghanistan. We also reviewed policies and procedures revised by responsible offices of the
Department of Defense Components as a result of our prior Combating Trafficking in Persons
reports.

What We Found
    As a result of our contracts review, site visits, and interviews, we found:
•     Of 240 Department of Defense contracts reviewed, 95 percent contained the current required
      Federal Acquisition Regulation Combating Trafficking in Persons clause, and 97 percent
      contained some form of a Combating Trafficking in Persons clause.
•     A local supplemental Combating Trafficking in Persons clause concerning living conditions
      and retention of passports was included in 89 percent of contracts reviewed. A second local
      clause concerning contractor demobilization was included in 91 percent of reviewed
      contracts written after the requirement was established in November 2010.
•     U.S. Central Command subordinate commands in the Islamic Republic of Afghanistan had
      not developed localized Combating Trafficking in Persons policies, procedures, or training.
•     The Contingency Contracting and Acquisition Policy Office of the Undersecretary of
      Defense for Acquisition, Technology, and Logistics developed Combating Trafficking in
      Persons and workers’ rights awareness materials, available in several languages, for use in
      contingency operations including the Islamic Republic of Afghanistan.



                                                       i
Evaluation of DoD Contracts Regarding Trafficking in Persons:             Report No. DoDIG-2012-086
Afghanistan                                                                             May 15, 2012

What We Recommend
•    The Assistant Secretary of the Army for Acquisition, Logistics, and Technology should
     ensure that the Federal Acquisition Regulation clause 52.222-50, “Combating Trafficking in
     Persons” and the U.S. Central Command Joint Theater Support Contracting Command
     clauses 952.222-0001, “Prohibition Against Human Trafficking, Inhumane Living
     Conditions, and Withholding of Employee Passports,” and 952.225-0016, “Contractor
     Demobilization (Afghanistan),” are included in all contracts identified as deficient in our
     review.
•    The Commander, U.S. Central Command, should ensure that all commands operating in their
     area of responsibility, including the Islamic Republic of Afghanistan, should develop
     Combating Trafficking in Persons policies, procedures, and localized training supplements
     and that Combating Trafficking in Persons is incorporated into the Command Inspection
     Program.


Client Comments and Our Response
The Office of the Assistant Secretary of the Army for Acquisition, Logistics, and Technology
and the U.S. Central Command concurred with our recommendations, and provided plans for
correcting the deficient contracts.

During our field work and analysis, some contracts administered by the U.S. Navy, U.S. Air
Force, U.S. Special Operations Command, and Washington Headquarters Services were
identified as not containing the appropriate Combating Trafficking in Persons clauses. These
organizations either reexamined the contracts and found the clauses in previous modifications,
amended the contracts to correct the deficient contracts, or demonstrated that the contracts had
been closed out prior to publication of this report.

Recommendations Table
Client                                    Recommendations            No Additional Comments
                                          Requiring Comment          Required
Assistant Secretary of the Army                                      1.a, 1.b
for Acquisition, Logistics, and
Technology
Commander, U.S. Central                                              2.a., 2.b.
Command


Total Recommendations in this Report: 4




                                                       ii
Evaluation of DoD Contracts Regarding Trafficking in Persons:                                                                         Report No. DoDIG-2012-086
Afghanistan                                                                                                                                         May 15, 2012



Table of Contents
Results in Brief: Evaluation of Department of Defense Contracts Regarding Combating Trafficking in
Persons: Afghanistan ...................................................................................................................................................i
    What We Did .............................................................................................................................................................i
    What We Found .........................................................................................................................................................i
    What We Recommend ............................................................................................................................................. ii
    Client Comments and Our Response ....................................................................................................................... ii
    Recommendations Table.......................................................................................................................................... ii
Introduction .................................................................................................................................................................1
    Background ...............................................................................................................................................................1
    Objective ...................................................................................................................................................................3
    Scope ........................................................................................................................................................................3
    Methodology .............................................................................................................................................................3
Results ...........................................................................................................................................................................5
    Combating Trafficking in Persons Clause Inclusion in Contracts ............................................................................5
    Combating Trafficking in Persons Program Implementation in Afghanistan ...........................................................9
    Department of Defense Trafficking in Persons Criminal Investigative Reporting ................................................. 11
    Follow-up on Prior Recommendations ................................................................................................................... 11
Appendix A. Methodology and Acronyms.............................................................................................................. 13
    Methodology ........................................................................................................................................................... 13
    Acronyms ................................................................................................................................................................ 14
Appendix B. Summary of Prior Coverage.............................................................................................................. 15
Appendix C. Report Distribution ............................................................................................................................ 17
Evaluation of DoD Contracts Regarding Trafficking in Persons:           Report No. DoDIG-2012-086
Afghanistan                                                                           May 15, 2012




                                   This Page Intentionally Left Blank
Evaluation of DoD Contracts Regarding Trafficking in Persons:                          Report No. DoDIG-2012-086
Afghanistan                                                                                          May 15, 2012



Introduction
Over the past decade, Congress passed legislation to address its concern regarding allegations of
contractor and U.S. Forces’ involvement in sexual slavery, human trafficking, and debt bondage.
Prior to 2000, allegations of sexual slavery, sex with minors, and human trafficking involving
U.S. contractors in Bosnia and Herzegovina led to administrative and criminal investigations by
U.S. Government agencies. In 2002, a local television news program aired a report alleging that
women trafficked from the Philippines, Russia, and Eastern Europe were forced into prostitution
in bars in South Korea frequented by U.S. military personnel, which resulted in an investigation
and changes in DoD policy. In 2004, official reports chronicled allegations of forced labor and
debt bondage against U.S. contractors in Iraq. These incidents, when confirmed, were contrary
to U.S. Government policy regarding official conduct 1 and reflected poorly on DoD.

Background
In 2000, the President signed into law two statutes responding in part to identified contractor and
U.S. Forces’ misconduct in Bosnia and Herzegovina: Public Law 106-386, which included the
“Victims of Trafficking and Violence Protection Act of 2000,” on October 28, and Public Law
106-523, “Military Extraterritorial Jurisdiction Act of 2000,” on November 22.

The stated purposes of the first statute are “…to combat trafficking in persons [CTIP], a
contemporary manifestation of slavery whose victims are predominantly women and children, to
ensure just and effective punishment of traffickers, and to protect their victims.” The second
statute established “Federal jurisdiction over offenses committed outside the United States by
persons employed by or accompanying the Armed Forces, or by members of the Armed Forces
who are released or separated from active duty prior to being identified and prosecuted for the
commission of such offenses.” Congress specifically extended this extraterritorial jurisdiction
over trafficking in persons (TIP) offenses committed by persons employed by or accompanying
the Federal Government outside the United States in Public Law 109-164, “Trafficking Victims
Protection Reauthorization Act of 2005,” January 10, 2006.

Additional reauthorizations expanded the scope and applicability of the original statute. Public
Law 108-193, the “Trafficking Victims Protection Reauthorization Act of 2003,” December 19,
2003, gave the Government the added authority to terminate grants, contracts, or cooperative
agreements for TIP-related violations.
        The President shall ensure that any grant, contract, or cooperative agreement provided or entered
        into by a Federal department or agency under which funds are to be provided to a private entity, in
        whole or in part, shall include a condition that authorizes the department or agency to terminate
        the grant, contract, or cooperative agreement, without penalty, if the grantee or any subgrantee, or
        the contractor or any subcontractor (i) engages in severe forms of trafficking in persons or has
        procured a commercial sex act during the period of time that the grant, contract, or cooperative




1
 Executive Order 13257 “President’s Interagency Task Force To Monitor and Combat Trafficking in Persons,” of
February 13, 2002, and Executive Order 13333, “Amending Executive Order 13257 To Implement the Trafficking
Victims Protection Reauthorization Act of 2003,” March 18, 2004.


                                                         1
Evaluation of DoD Contracts Regarding Trafficking in Persons:                                Report No. DoDIG-2012-086
Afghanistan                                                                                                May 15, 2012

           agreement is in effect, or (ii) uses forced labor in the performance of the grant, contract, or
           cooperative agreement. 2

In 2006, the Civilian Agency Acquisition Council and the Defense Acquisition Council agreed
on an interim rule implementing the above stated requirement, adding Federal Acquisition
Regulation (FAR) Subpart 22.17, “Combating Trafficking in Persons.” The regulation states that
the “subpart applies to all acquisitions,” and paragraph 22.1705, “Contract clause” states:
           (a) Insert the clause at 52.222-50, Combating Trafficking in Persons, in all solicitations and
           contracts.
           (b) Use the basic clause with its Alternate I when the contract will be performed outside the
           United States (as defined at 25.003) and the contracting officer has been notified of specific U.S.
           directives or notices regarding combating trafficking in persons (such as general orders or military
           listings of “off-limits” local establishments) that apply to contractor employees at the contract
           place of performance.

The DoD Inspector General mandate for this evaluation is contained in Public Law 110-457,
“William Wilberforce Trafficking Victims Protection Reauthorization Act of 2008,” December
23, 2008. Subtitle D, section 232, which requires the Inspector General, for FYs 2010 through
2012, to:
           …investigate a sample of … contracts, or subcontracts at any tier, under which there is a
           heightened risk that a contractor may engage, knowingly or unknowingly, in acts related to
           trafficking in persons, such as:
                (A) confiscation of an employee’s passport;
                (B) restriction on an employee’s mobility;
                (C) abrupt or evasive repatriation of an employee;
                (D) deception of an employee regarding the work destination; or
               (E) acts otherwise described in section 106(g) of the Trafficking Victims Protection Act of
           2000 (22 U.S.C. 7104).

Section 232 of Public Law 110-457 also requires a report to Congress no later than January 15
for three consecutive years:
           (A) summarizing the findings of the investigations conducted in the previous year, including any
           findings regarding trafficking in persons or any improvements needed to prevent trafficking in
           persons; and
           (B) in the case of any contractor or subcontractor with regard to which the Inspector General has
           found substantial evidence of trafficking in persons, report as to—
                (i) whether or not the case has been referred for prosecution; and
                (ii) whether or not the case has been treated in accordance with section 106(g) of the
                Trafficking Victims Protection Act of 2000 (22 U.S.C. 7104) (relating to termination of
                certain grants, contracts and cooperative agreements).

The Office of the Inspector General announced this series of evaluations on August 5, 2009.
Report number IE-2010-001, “Evaluation of DoD Contracts Regarding Combating Trafficking in
Persons,” January 15, 2010 (2010 CTIP Report), addressed contracts in the U.S. Pacific
Command. The second report, SPO-2011-002, “ Evaluation of DoD Contracts Regarding
Combating Trafficking in Persons: U.S. Central Command,” January 18, 2011 (2011 CTIP
Report), discussed the results of our review of selected construction and services contracts
awarded in FYs 2009 and 2010 in the U.S. Central Command geographic area of responsibility.
The third report, DoDIG 2012-041, “Evaluation of DoD Contracts Regarding Combating
2
    The language is codified in section 7104g, Title 22, United States Code (22 U.S.C. §7104g [2010]).


                                                              2
Evaluation of DoD Contracts Regarding Trafficking in Persons:                        Report No. DoDIG-2012-086
Afghanistan                                                                                        May 15, 2012

Trafficking in Persons: U.S. European Command and U.S. Africa Command,” January 17, 2012
(2012 CTIP Report), discussed the results of our review of selected construction and services
contracts with a period of performance in FY 2011 and a place of performance in the U.S.
European Command and U.S. Africa Command areas of operation. 3 This report, the fourth in a
series, addresses a review of selected contracts with a place of performance in the Islamic
Republic of Afghanistan, which is in the U.S. Central Command geographic area of
responsibility. It expands on the 2011 CTIP report, taking a closer look at CTIP program
execution and contract administration, and summarizing contracts performed in the Islamic
Republic of Afghanistan.

Objective
Our specific objective was to review a sample of DoD contracts for compliance with the
“Trafficking Victims Protection Act of 2000,” 22 U.S.C. 78 (2010), as amended, and to
summarize DoD CTIP investigative efforts.

Scope
We examined 240 contracts solicited, awarded, or administered by Army, Navy, and Air Force
commands, as well as the Defense Agencies in the Islamic Republic of Afghanistan.

Our contract sample consisted of construction and service contracts, each with a total value of
$5 million or more and with a period of performance in FY 2011. We believe that this sample
met the “heightened risk” standard stated in the statute (e.g., an increased opportunity “that a
contractor may engage, knowingly or unknowingly, in acts related to trafficking in persons”).

Methodology
We conducted site visits during January and February 2012, visiting nine separate installations
throughout the Islamic Republic of Afghanistan. We interviewed military commanders and staff,
contracting office staff, and contractor representatives involved with the contracts in our sample.
We also interviewed Army and Air Force Exchange Service representatives to gain an
understanding of CTIP efforts for non-appropriated fund activities. Finally, we contacted
selected DoD administrative and criminal investigation organizations to obtain TIP-related
criminal statistic summaries.

The Office of the Under Secretary of Defense for Acquisition, Technology, and Logistics
generated a contract sample at our request using the Federal Procurement Data System-Next
Generation database. We verified the presence of the mandatory CTIP clause in the contracts in
our sample using the DoD Defense Electronic Business Program Office’s Web-based Electronic
Document Access database.

For a more detailed discussion of the project methodology, see Appendix A.




3
    For copies of these reports, see http://www.dodig.mil/Inspections/IPO/combatinghuman.htm


                                                         3
Evaluation of DoD Contracts Regarding Trafficking in Persons:           Report No. DoDIG-2012-086
Afghanistan                                                                           May 15, 2012




                                   This Page Intentionally Left Blank




                                                       4
Evaluation of DoD Contracts Regarding Trafficking in Persons:                        Report No. DoDIG-2012-086
Afghanistan                                                                                        May 15, 2012



Results
Combating Trafficking in Persons Clause Inclusion in
Contracts
Observation 1
In our review of a selected sample of contracts for construction and services within the Islamic
Republic of Afghanistan, we found that 95 percent (227 out of 240) included the proper version
of FAR clause 52.222-50, “Combating Trafficking in Persons.”

This was a marked improvement compared to the results discussed in our three prior CTIP
evaluation reports, in which we found that approximately half of the contracts reviewed did not
include the FAR CTIP clause or included an outdated or incorrect version of the CTIP clause.

As a result, in most cases contracting officers responsible for contracts performed in the Islamic
Republic of Afghanistan were equipped to apply remedies in the case of substantiated TIP-
related violations.

Discussion
Federal Acquisition Regulation Combating Trafficking in Persons Clause
The FAR requires that all Federal solicitations and contracts contain clause 52.222-50,
“Combating Trafficking in Persons,” or the clause with Alternate I modification for contracts
with performance outside the U.S. 4 The team reviewed 240 DoD construction and services
contracts with the place of performance in the Islamic Republic of Afghanistan and a period of
performance that included FY 2011.
                                                    Incorrect
                                       Clause Not    Clause
                                        Included       2%             Clause
                                           3%
                                                                     Included
                                                                       95%




                     Figure 1. Presence of the FAR CTIP Clause in Sampled Contracts.

As shown in Figure 1, we found that 95 percent of the contracts (227 of 240) contained a proper
version of FAR clause 52.222-50, and an additional 2 percent of the contracts (5 of 240)
contained an incorrect citation. Overall, this was a significant improvement when compared to
the findings of our prior DoD CTIP evaluations, where only half of the contracts we reviewed
4
  FAR paragraph 22.1705 requires FAR clause 52.222-50 Alternate I when “the contract will be performed outside
the United States…and the contracting officer has been notified of specific U.S. directives or notices regarding
combating trafficking in persons…that apply to contractor employees at the contract place of performance.”


                                                          5
Evaluation of DoD Contracts Regarding Trafficking in Persons:                            Report No. DoDIG-2012-086
Afghanistan                                                                                            May 15, 2012

contained the proper version of the FAR CTIP clause. Incorrect citations included references to
either an outdated version of FAR clause 52.222-50 or a regional clause developed for
supplemental use in the U.S. Central Command area of responsibility, without inclusion of the
mandatory FAR clause. In summary, 97 percent of the contracts reviewed (232 of 240) included
CTIP requirements in some form.

Three percent of the contracts (8 of 240) did not contain any form of the FAR CTIP clause. 5 The
contracting offices of various commands in the Department of the Army had oversight
responsibility for these contracts.

Noncompliance with the requirement to include the FAR CTIP clause in contracts has two
negative effects. First, contractors may not have been made aware of the U.S. Government’s
“zero tolerance” policy and self-reporting requirements regarding CTIP. Second, contracting
officers were potentially unable to apply applicable remedies to correct contractor violations
when the CTIP clause was not properly present.

Significant progress has been made in ensuring that the FAR CTIP clause was included, although
some additional effort is still necessary to ensure full compliance.

    Recommendation 1.a. The Assistant Secretary of the Army for Acquisition, Logistics, and
    Technology should ensure that the Federal Acquisition Regulation clause 52.222-50,
    “Combating Trafficking in Persons” is included in all contracts identified as deficient in our
    review.


Client Comments and Our Response
The Office of the Assistant Secretary of the Army for Acquisition, Logistics, and Technology
concurred with our recommendation, and provided a plan for correcting the deficient contracts.

During our field work and analysis, one Washington Headquarters Services contract was
identified as not containing the FAR CTIP clause. They issued a modification to that contract,
correcting the identified deficiency prior to publication of this report.




5
  Contracting offices include CTIP language in contracts by inserting the full text of the current or outdated clause
52.222-50, “Combating Trafficking in Persons;” inclusion by reference; or inclusion by reference via FAR clause
52.212-5, “Contract Terms and Conditions Required to Implement Statutes or Executive Orders – Commercial
Items,” where applicable.


                                                           6
Evaluation of DoD Contracts Regarding Trafficking in Persons:                      Report No. DoDIG-2012-086
Afghanistan                                                                                      May 15, 2012

Local Supplemental Clauses
The U.S. Central Command Joint Theater Support Contracting Command (C-JTSCC) developed
two additional CTIP-related clauses required in all contracts with the place of performance in
Afghanistan. 6 These clauses are 952.222-0001, “Prohibition Against Human Trafficking,
Inhumane Living Conditions, and Withholding of Employee Passports,” and 952.225-0016,
“Contractor Demobilization (Afghanistan).” We also reviewed the sampled contracts to
determine the presence of these two additional contract clauses.

The C-JTSCC clause 952.222-0001 requires all prime and subcontractors performing DoD
contracts to:
       •   allow employees to retain their passports,
       •   provide employees with signed copies of their employment contract in English and their
           native language,
       •   provide adequate living conditions for their employees (and defines such),
       •   incorporate checks of employees’ life support areas in quality control programs, and
       •   comply with international and host-nation transit/exit/entry requirements.
The clause also prohibits prime and subcontractors performing DoD contracts from using
“unlicensed recruiting firms or firms that charge illegal recruiting fees.”

C-JTSCC clause 952.222-0001 was present in 89 percent (213 of 240) of the contracts in our
sample. In addition, clause 952.222-0001 was included in six of eight contracts listed above that
did not have any form of the FAR CTIP clause. While not fully compliant, the presence of this
clause would allow contracting officials to take action in instances of certain TIP-related
violations.

C-JTSCC published clause 952.225-0016 in November 2010 for inclusion in DoD contracts.
The clause requires the contractor to submit a demobilization plan. In addition to the return of
facilities and equipment, the clause states that it is the “expectation of the USG [U.S.
Government] that for any persons brought into the Afghanistan CJOA [Combined Joint Area of
Operations] for the sole purposes of performing work on USG contracts, contract employers will
return employees to their point of origin/home country once the contract is completed or their
employment is terminated for any reason.”

C-JTSCC clause 952.225-0016 was present in 67 percent (160 of 240) of the contracts in our
sample. However, it was included in 91 percent (126 of 139) contracts written after November
2010, the date the clause became a requirement.

A large percentage of the contracts in our sample contained both C-JTSCC-developed clauses.
However, in light of scheduled troop withdrawals and the corresponding reduction in contractor
support, and increasing use of Afghan labor, requiring all DoD contractors to take care of and
account for their employees is a necessity.



6
    U.S. Central Command Joint Theater Support Contracting Command Acquisition Instruction, September 01, 2011.


                                                        7
Evaluation of DoD Contracts Regarding Trafficking in Persons:            Report No. DoDIG-2012-086
Afghanistan                                                                            May 15, 2012


 Recommendation 1.b. The Assistant Secretary of the Army for Acquisition, Logistics, and
 Technology; should ensure that the U.S. Central Command Joint Theater Support Contracting
 Command clauses 952.222-0001, “Prohibition Against Human Trafficking, Inhumane Living
 Conditions, and Withholding of Employee Passports,” and 952.225-0016, “Contractor
 Demobilization (Afghanistan),” are included in all contracts identified as deficient in our
 review.



Client Comments and Our Response
The Office of the Assistant Secretary of the Army for Acquisition, Logistics, and Technology
concurred with recommendation 1.b., and has provided a plan for addressing the deficient
contracts.

During our field work and analysis, nine Air Force contracts and one U.S. Navy contract were
identified as deficient, but upon further examination the C-JTSCC CTIP clauses were identified
in previously completed modifications to the contracts. As a result, all U.S. Air Force and U.S.
Navy contracts in the sample contained the appropriate CTIP clauses.

In response to contracts identified as missing the appropriate C-JTSCC CTIP clauses during our
field work and analysis, the Director of Acquisition, U.S. Special Operations Command, and the
Director of Acquisition, Washington Headquarters Services, issued modifications to correct the
deficiencies or demonstrated that contracts had been closed out. As a result, all of the contracts
in our sample for which U.S. Special Operations Command and Washington Headquarters
Services had responsibility either contained the appropriate CTIP clauses, were amended to
include the appropriate CTIP clauses, or had been closed out prior to the publication of this
report.




                                                       8
Evaluation of DoD Contracts Regarding Trafficking in Persons:                          Report No. DoDIG-2012-086
Afghanistan                                                                                          May 15, 2012


Combating Trafficking in Persons Program Implementation in
Afghanistan
Observation 2
During our site visit and interviews, we found that, while U.S. Government personnel were
aware of CTIP statutes and DoD CTIP regulations, there was limited understanding on how to
apply them to local and cultural settings within Afghanistan.

Deployed forces lacked guidance addressing DoD CTIP requirements within the culture and
constraints unique to the Islamic Republic of Afghanistan.

This hindered means within the commands to identify, assess, investigate, and correct potential
TIP incidents.

Discussion
DoD Instruction 2200.01, “Combating Trafficking in Persons,” September 15, 2010, requires
Commanders of the Combatant Commands to develop policy, procedures, and local training
supplements for CTIP within their areas of operation. The Instruction also requires Combatant
Commanders to conduct periodic evaluations of CTIP awareness training and involve their
inspectors general in the evaluations.

In response, the Commander, U.S. Central Command issued U.S. Central Command Regulation
570-4, “Combating Trafficking in Persons (CTIP),” August 19, 2011. 7 This regulation delegates
responsibility for CTIP policy, procedures, and local training supplements to Component and
Joint Task Force Commands. The regulation also requires the U.S. Central Command Inspector
General to incorporate TIP considerations into the command inspection program.

During our document review and the conduct of interviews, we found no CTIP policies,
procedures, or localized training supplements developed at any level below U.S. Central
Command headquarters. We also found no evidence of the inclusion of CTIP in command
inspections. It is important that U.S. Commands operating within the Islamic Republic of
Afghanistan have policies and procedures to protect local and third country national workers
from TIP incidents or activities, as well as to provide a means to investigate allegations and
apply corrective actions toward DoD contractors who may be in violation of CTIP requirements.

We observed, and it was further reported, that throughout Afghanistan, third country and local
national workers supporting DoD contracts had a limited understanding of their rights as well as
the CTIP requirements imposed on the contractors that employed them. The low rate of literacy
and poor fluency in English contributed to this limited understanding.

The Contingency Contracting and Acquisition Policy Office of the Defense Procurement and
Acquisition Policy Directorate of the Office of the Undersecretary of Defense for Acquisition,
Technology, and Logistics, has developed a brochure for worker awareness of CTIP-related

7
    The August 19, 2011 Regulation is an update of an earlier version issued on May 22, 2008.


                                                          9
Evaluation of DoD Contracts Regarding Trafficking in Persons:                         Report No. DoDIG-2012-086
Afghanistan                                                                                         May 15, 2012

matters. 8 In addition, they created a contact card informing workers of their rights, and
providing a contact number for questions or assistance. The contact card is available in eight
languages (English, Arabic, Dari, Malay, Pashtu, Tagalog, Thai, and Urdu), and intended for
distribution to workers in contingency contracting environments. Limited quantities of the
brochure and contact cards were distributed to U.S. Government contracting commands within
the Islamic Republic of Afghanistan, where they were well received and reported to have raised
worker awareness.

Continued publication and wider, frequent distribution of worker awareness materials such as
these should raise the awareness of third country and local national workers regarding their rights
and CTIP requirements, help prevent TIP-related incidents from occurring, and aid in the
investigation of TIP-related incidents that occur.

    Recommendation 2. The Commander, U.S. Central Command, should ensure that:
    a. all Component Commands and Joint Task Forces operating in the U.S. Central Command
    area of responsibility develop Combating Trafficking in Persons policies, procedures,
    localized training supplements, and worker awareness materials in accordance with U.S.
    Central Command Regulation 570-4, “Combating Trafficking in Persons,” and
    b. the U.S. Central Command Inspector General incorporates Combating Trafficking in
    Persons into the Command Inspection Program.


Client Comments and Our Response
U.S. Central Command concurred with recommendations 2.a. and 2.b., stating that they will
update their CTIP regulation to require that commands and task forces operating within the U.S.
Central Command area of responsibility develop CTIP policies and procedures and report to U.S.
Central Command regarding these CTIP matters. Further, U.S. Central Command stated that
they will add CTIP into their command inspection program.




8
    Accessible at http://www.acq.osd.mil/dpap/pacc/cc/docs/Trafficking_trifoldFinal_8-9-11_hi_res.pdf


                                                         10
Evaluation of DoD Contracts Regarding Trafficking in Persons:                      Report No. DoDIG-2012-086
Afghanistan                                                                                      May 15, 2012



Department of Defense Trafficking in Persons Criminal
Investigative Reporting
Section 108 of Public Law 110-457 amended 22 U.S.C. §7109a, “Trafficking Victims
Protection,” to require that an integrated U.S. Government database be established that provides
“an effective mechanism for quantifying the number of victims of trafficking on a national,
regional, and international basis….” The statute required the database to combine “all applicable
data collected by each Federal department and agency represented on the Interagency Task Force
to Monitor and Combat Trafficking….” 9

We requested reports from the Defense Criminal Investigative Service, and the Army, Navy, and
Air Force Military Criminal Investigation Organizations summarizing TIP-related criminal
investigative activity under their purview from October 1, 2010, to November 30, 2011. The
reports provided a summary of the DoD case data contributing to the national database. The
scope of reporting was limited exclusively to alleged incidents occurring within borders of the
Islamic Republic of Afghanistan. The summaries included two TIP-related incidents involving,
or alleging the involvement of, DoD contractor or sub-contractor employees.

The U.S. Army Criminal Investigations Division Command initiated an investigation into an
allegation of DoD contractors involved in prostitution at Camp Phoenix. In May 2012, the
investigation was ongoing.

The Defense Criminal Investigative Service initiated an investigation of possible labor-related
human trafficking violations by a sub-contractor in Afghanistan. In October 2011, the case was
declared unfounded and closed.

Follow-up on Prior Recommendations
We contacted the responsible offices of the DoD Components, and have determined that they
have addressed all prior recommendations from the DoD Inspector General 2010 CTIP Report
and the 2011 CTIP Report. They have also submitted plans addressing recommendations from
the 2012 CTIP Report and are in the process of implementing them.




9
 Public Law 110-457, “William Wilberforce Trafficking Victims Protection Reauthorization Act of 2008,” section
108, “Research on Domestic and International Trafficking in Persons.”


                                                      11
Evaluation of DoD Contracts Regarding Trafficking in Persons:           Report No. DoDIG-2012-086
Afghanistan                                                                           May 15, 2012




                                   This Page Intentionally Left Blank




                                                      12
Evaluation of DoD Contracts Regarding Trafficking in Persons:                      Report No. DoDIG-2012-086
Afghanistan                                                                                      May 15, 2012



Appendix A. Methodology and Acronyms
Methodology
We announced this series of evaluations on August 5, 2009, and specifically announced an
assessment in the Islamic Republic of Afghanistan on November 21, 2011. We examined
statutes, policies, procedures, and management and oversight reports relevant to DoD policy and
practices regarding efforts to combat trafficking in persons.

We conducted this evaluation of a sample of all DoD construction and services contracts with a
total value of $ five million or greater, a period of performance in FY 2011, a place of
performance in the Islamic Republic of Afghanistan, and conducted site visits from November
2011 to February 2012. All work was done in accordance with the standards established by the
President’s Council on Integrity and Efficiency (now the Council of the Inspectors General on
Integrity and Efficiency) as updated and published in the Quality Standards for Inspections and
Evaluations, January 2012. The evidence we obtained provides a reasonable basis for our
observations and conclusions in concert with our objectives.

We selected the Islamic Republic of Afghanistan as an area satisfying the “heightened risk”
standard required by statute. 10 This decision was based on reports of prior human trafficking
incidents in the region and country “tier placements” in the Department of State’s “Trafficking in
Persons Report,” June 2011.

As part of the series of evaluations, we met with the DoD CTIP program office, located within
the Office of the Under Secretary of Defense for Personnel and Readiness. We consulted with
the Director of the Office to Monitor and Combat Trafficking in Persons of the Department of
State. Finally, we coordinated with Inspectors General from the Department of State and U.S.
Agency for International Development.

For this report we conducted site visits during January and February 2012, visiting nine separate
installations throughout the Islamic Republic of Afghanistan. The team conducted over 110
interviews with military commanders, contracting office staff, and others to discuss CTIP issues.
We performed sensing sessions with 78 personnel from contracting offices in the Army, Navy,
Air Force and Defense Contract Management Agency to gauge awareness of CTIP efforts. We
discussed CTIP implementation in non-appropriated fund contracts with Army and Air Force
Exchange Services representatives. In addition, we interviewed representatives from 10
contractors, discussing contractor self-reporting and training mechanisms. We met with 145
contractor employees (local and third-country nationals).

We contacted selected DoD administrative and criminal investigation organizations to obtain
summaries of criminal statistics related to trafficking in persons, as well as case synopses of
those that identified a DoD contractor or sub-contractor as a subject.



10
  Public Law 110-457, “William Wilberforce Trafficking Victims Protection Reauthorization Act of 2008,” section
232. See page 2 of this report.


                                                      13
Evaluation of DoD Contracts Regarding Trafficking in Persons:                   Report No. DoDIG-2012-086
Afghanistan                                                                                   May 15, 2012

We developed a sample of contracts through a data request submitted to the Office of the Under
Secretary of Defense for Acquisition, Technology, and Logistics. The Defense Procurement and
Acquisition Policy Office generated our contract sample list from the Federal Procurement Data
System-Next Generation database.

Our selection criteria were contracts for construction and services with:

     •   a place of performance in the Islamic Republic of Afghanistan,
     •   a period of performance in FY 2011, and
     •   a total contract value (including options) of $5 million or greater.
This resulted in a total sample size of 240 DoD contracts. These constraints provided us with a
reasonable data set that was current and included labor-intensive efforts with significant numbers
of third country national and local employees susceptible to forced labor practices.
We provided the contracts sample list to contracting offices that issued or administered the
contracts, asking them to review the contracts for inclusion of the mandatory FAR CTIP clause
52.222-50 or its Alternate I (when the contract was performed outside the U.S.). We also
requested the contracting offices to provide information regarding the inclusion of two CTIP-
related contract clauses required by U.S. Central Command Joint Theater Support Contracting
Command Acquisition Instruction, September 1, 2011. These clauses are 952.222-0001,
“Prohibition Against Human Trafficking, Inhumane Living Conditions, and Withholding of
Employee Passports,” and 952.225-0016, “Contractor Demobilization (Afghanistan).”
For each contract, the relevant contracting office stated whether the clause was present, and if so
the location in the contract, and the date of the included clause. We consolidated and verified the
data provided.

Use of Computer-Processed Data
We reviewed contract documents using the Defense Electronic Business Program Office
Electronic Document Access database, which provided the most efficient source for the
information required. The DoD Chief Information Officer directed all DoD Components to use
the Electronic Document Access database, but Components remained responsible for the
accuracy, authenticity, integrity, and timeliness of submitted documents. 11 We did not assess
database reliability or test the sample for completeness. We did not attempt to project additional
results from our sample and believe the sample reviewed was sufficient to support our
conclusions.

Acronyms
C-JTSCC          U.S. Central Command Joint Theater Support Contracting Command
CTIP             Combating Trafficking in Persons
FAR              Federal Acquisition Regulation
TIP              Trafficking in Persons
U.S.C.           United States Code

11
 “DoD Electronic Document Access (EDA) Business Rules,” DoD Chief Information Officer memorandum,
November 5, 2001.


                                                      14
Evaluation of DoD Contracts Regarding Trafficking in Persons:      Report No. DoDIG-2012-086
Afghanistan                                                                      May 15, 2012



Appendix B. Summary of Prior Coverage
Department of Defense Inspector General
DoDIG Report No. IE-2007-002, “Evaluation of DoD Efforts to Combat Trafficking in Persons,”
November 21, 2006.

DoDIG Report No. IE-2010-001, “Evaluation of DOD Contracts Regarding Combating
Trafficking in Persons,” January 15, 2010.

DoDIG Report No. SPO-2011-002, “Evaluation of DoD Contracts Regarding Combating
Trafficking in Persons: U.S. Central Command,” January 18, 2011.

DoDIG Report No. DODIG-2012-041, “Evaluation of DoD Contracts Regarding Combating
Trafficking in Persons: U.S. European Command and U.S. Africa Command,” January 17, 2012.

Unrestricted DoDIG reports can be accessed over the Internet at
http://www.dodig.mil/PUBS/index.html




                                                      15
Evaluation of DoD Contracts Regarding Trafficking in Persons:           Report No. DoDIG-2012-086
Afghanistan                                                                           May 15, 2012




                                   This Page Intentionally Left Blank




                                                      16
Evaluation of DoD Contracts Regarding Trafficking in Persons:         Report No. DoDIG-2012-086
Afghanistan                                                                         May 15, 2012



Appendix C. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense for Personnel and Readiness
  Director, Law Enforcement Policy and Support

Department of the Army
Assistant Secretary of the Army for Acquisition, Logistics, and Technology*

Combatant Commands
Commander, U.S. Central Command*
  Commander, U.S. Forces – Afghanistan

Congressional Committees
Senate Committee on Armed Services
Senate Committee on Foreign Relations
House Committee on Armed Services
House Committee on Foreign Affairs




* Recipient of the draft report
Evaluation of DoD Contracts Regarding Trafficking in Persons:           Report No. DoDIG-2012-086
Afghanistan                                                                           May 15, 2012




                                   This Page Intentionally Left Blank
Special Plans & Operations
 Provide assessment oversight that addresses priority national security
 objectives to facilitate informed, timely decision-making by senior
 leaders of the DOD and the U.S. Congress.



 General Information
   Forward questions or comments concerning this assessment and report and other
   activities conducted by the Office of Special Plans & Operations to spo@dodig.mil

                      Deputy Inspector General for Special Plans & Operations
                            Department of Defense Inspector General
                                       400 0DUN &HQWHU Drive
                                    AlH[DnGULD, VA 22-0




                           Visit us at www.dodig.mil


   DEPARTMENT OF DEFENSE



   hot line                              make a difference
                                             800.424.9098
                                                             Report                        www.dodig.mil/hotline
                                                             Fraud, Waste, Mismanagement, Abuse of Authority
                                                             Suspected Threats to Homeland Security
   Defense Hotline,The Pentagon, Washington, DC 20301-1900   Unauthorized Disclosures of Classified Information
